DOE/IG-0540




          AUDIT                   ADVANCED RADIOISOTOPE POWER
         REPORT                        SYSTEMS PROGRAM




                                             JANUARY 2002




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                             January 14, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on the "Advanced
                          Radioisotope Power Systems Program"

BACKGROUND

The Department of Energy's Advanced Radioisotope Power Systems (ARPS) program
maintains the sole national capability to produce radioisotope power systems for the National
Aeronautics and Space Administration (NASA) and the Department of Defense (DOD). The
Department's policy is to pay only the cost of maintaining the capability to produce the power
systems, and to recover mission-specific development and hardware costs from NASA and
DOD. In Fiscal Year (FY) 2001, ARPS program funding included $31.8 million from the
Department, $20 million from NASA, and
$4.7 million from DOD.

In October 1997, we reported that the Department had not recovered $46.3 million in fuel costs
for NASA's Cassini Mission to Saturn because an interagency agreement had not been
established between the Department and NASA. In response to our review, the Department
negotiated a settlement with NASA to recover a portion of the cost of the fuel used in the
mission. This matter has been of concern, as well, to the Congress. The House Committee on
Appropriations, in its FY 2000 Committee report, took the unambiguous position that the
Department should negotiate new agreements with NASA. Further, in the Committee's FY
2002 report, it instructed the Department to seek additional funding from NASA and DOD for
the ARPS program.

The objective of this audit was to determine whether the Department had established
interagency agreements with NASA and DOD to ensure that mission-specific costs are fully
recovered.

RESULTS OF AUDIT

We found that the Department had not established interagency agreements with NASA and
DOD to recover mission-specific costs. Although memoranda of understanding with the
agencies called for the establishment of interagency agreements to specify funding,
deliverables, and the level of support for each mission, the Department had not executed such
agreements with NASA since 1994 or with DOD since 1974. The Department chose to fund all
safety-related ARPS activities even when these activities were directly related to and supported
NASA and DOD missions. This policy was in contrast to a 1999 Streamlining Plan provided to
Congress in which the Department stated that NASA and DOD would fund all mission-specific
development and hardware costs. Unless the Department brings its practices in line with the
Streamlining Plan provided to Congress, by FY 2003 the Department will have incurred as
much as $15.5 million for mission-specific, safety-related costs that, in our judgment, should
have been recovered from NASA and DOD.

MANAGEMENT REACTION

Management stated that the capability to perform the required safety analysis and testing is a
unique expertise that cannot be turned on and off as specific missions come along and that
safety-related activities are an integral "de facto" part of the Department program and facility
infrastructure. Further, management did not agree with our conclusion that safety-related
activities, even if mission-specific, should be funded by the user agencies. Management
expressed the view that it has properly sought funding for safety analysis consistent with its
understanding with NASA and DOD and in accordance with national space policy. However,
the Department recognized that the funding for mission-specific safety analyses could be the
subject of discussions with partner agencies and agreed to meet with NASA and DOD to
review existing agreements and clarify funding responsibilities.

We agree that the Department is appropriately responsible for certain safety-related activities
to support its work for NASA and DOD ARPS programs. However, our disagreement centers
on which agency should bear the cost of activities which are related to specific missions.
Based on our analysis of the Department's policy, including its ARPS Streamlining Plan,
when these activities and their associated costs are directly attributable to specific missions of
NASA and DOD, the costs should be born by these agencies rather than the Department. This
philosophy is consistent, as well, with congressional direction, as we understand it.
Additionally, we disagree with the contention that the Department's actions have been
consistent with the national space policy. The policy charges the Department with
maintaining the necessary capability to support space missions that may require the use of
nuclear power systems. It does not preclude the Department from seeking NASA or DOD
funding for mission-specific, safety-related costs.

The question of cost recovery for work done for other agencies has significant ramifications.
Given the budget realities facing the Department, we believe it is an issue requiring senior
management attention.


cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Director, Office of Nuclear Energy, Science and Technology
    Director, Office of Management, Budget, and Evaluation
ADVANCED RADIOISOTOPE POWER SYSTEMS PROGRAM


TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 2


                Interagency Agreements

                Details of Finding.......................................................................3

                Recommendations and Comments ...........................................6


                Appendices

                Scope and Methodology.............................................................9

                Management's Comments........................................................11
OVERVIEW


INTRODUCTION AND   The Department of Energy's (Department) Advanced Radioisotope
OBJECTIVE          Power Systems (ARPS) Program is the nation's only program for
                   developing and building advanced nuclear power systems for space
                   exploration and national security applications. Program funding is
                   provided jointly by the Department, the National Aeronautics and
                   Space Administration (NASA), and the Department of Defense (DOD).
                   The responsibilities of each entity are contained within applicable
                   memoranda of understanding. The memoranda state that interagency
                   agreements will be established to specify funding, deliverables, and
                   other mission-specific items for each mission. In Fiscal Year (FY)
                   2001, program funding included $31.8 million from the Department,
                   $20 million from NASA, and $4.7 million from DOD.

                   The Office of Inspector General (OIG) has reported on the ARPS
                   Program in two prior audits. In DOE/IG-0408, Audit of Shutdown and
                   Transition of the Mound Plant (June 1997), we reported that the Office
                   of Nuclear Energy, Science and Technology planned to continue
                   assembling and testing isotopic heat sources and advanced radioisotope
                   power systems at the Mound Plant without adequately considering the
                   Department's overall economic goals. As a result, we concluded the
                   Department would incur $4 million to $8.5 million more than necessary
                   each year to continue operations at the Mound Plant. In response to the
                   audit, the Department stated they had performed detailed analyses and
                   concluded that no cost savings would result from moving the operations
                   to another site.

                   Additionally, in DOE/IG-0413, Report on Audit of Funding for
                   Advanced Radioisotope Power Systems (October 1997), we reported
                   that the Department had not recovered the cost of fuel used in NASA's
                   Cassini Mission to Saturn. This occurred because the Department had
                   not established an interagency agreement with NASA for the recovery
                   of fuel costs. As a result, the Department had not collected about
                   $46.3 million from NASA. In response to the audit, the Department
                   negotiated a settlement with NASA to recover a portion of the value of
                   the fuel used in the Cassini Mission.

                   In addition to the OIG audits, the U.S. House of Representatives has
                   expressed concerns about ARPS program costs. In its FY 2000 report,
                   the House Appropriations Committee strongly urged the Department to
                   negotiate new agreements with NASA. In its FY 2002 report, the
                   Committee encouraged the Department to seek additional funding from
                   NASA and DOD.



Page 1                                                       Introduction and Objective
                  The objective of this audit was to determine whether the Department had
                  established interagency agreements with NASA and DOD to ensure
                  mission-specific costs are fully recovered.

CONCLUSIONS AND   The Department had not established interagency agreements with NASA
OBSERVATIONS      and DOD to ensure mission-specific costs are fully recovered.
                  Although the Department's 1999 ARPS Streamlining Plan stated that
                  NASA and DOD would fund all mission-specific development and
                  hardware costs, the Department did not establish interagency agreements
                  with these agencies to specify funding, deliverables and level of support
                  for each mission. The Department has relied on various communications
                  to determine production requirements and funding responsibilities. In
                  the absence of an agreement, the Department chose to fund all safety-
                  related activities, even when they were mission-specific. As a result, the
                  Department could incur as much as $15.5 million in FYs 2000 through
                  2002 for mission-specific costs that could have been recovered from
                  NASA and DOD. These costs could significantly increase after
                  FY 2002, given NASA's projected mission needs.

                  This audit identified issues that management should consider when
                  preparing its year-end assurance memorandum on internal controls.




                                                              (Signed)
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
INTERAGENCY AGREEMENTS


Interagency Agreements   The Department has not established interagency agreements with
Have Not Been            NASA and DOD to ensure mission-specific costs are fully recovered.
Established              Specifically, no interagency agreement exists for ongoing or planned
                         ARPS projects. For example, the Department is currently qualifying a
                         power system for NASA's use in a future Pluto-Kuiper mission and
                         refurbishing power systems for DOD without interagency agreements.

                         According to management, the last agreement with NASA was
                         executed in FY 1994 for the Cassini Mission to Saturn that was
                         launched in October 1997. The last interagency agreement with DOD
                         was executed in 1974.

Interagency Agreements   The Department established memoranda of understanding with NASA
Are Required For All     and DOD to define each entity's responsibilities for the ARPS program.
Program Work             The memoranda state that interagency agreements will be established to
                         specify funding, deliverables, levels of support, and other mission-
                         specific items for each mission. Funding is to be addressed in detail
                         and identify which participant will pay for research, development,
                         design, fabrication, qualification, testing, evaluation, storage, delivery,
                         contingency planning support, and other related activities.

                         Additionally, the Department submitted its Plan on Streamlining the
                         Advanced Radioisotope Power System Program (Streamlining Plan) to
                         Congress in March 1999. The Streamlining Plan states that the
                         Department will fund the basic capability and infrastructure to produce
                         advanced radioisotope power systems, and NASA and DOD will fund
                         all mission-specific development and hardware costs.

Department Relied on     Instead of establishing interagency agreements, the Department has
Communications and       relied on telephonic contacts, meetings, and correspondence such as
Chose to Fund Safety-    annual orders for supplies and services to determine program
Related Activities       requirements and funding responsibilities. The Department has not
                         required either entity to sign an interagency agreement prior to
                         initiating user-related work. Management stated that although
                         negotiations with NASA and DOD have occurred and are ongoing, no
                         interagency agreements have resulted.

                         In the absence of an agreement, the Department chose to fund all
                         safety-related efforts, even when they were mission-specific.
                         Management stated that the practice of funding safety-related efforts
                         was consistent with its agreements with NASA and DOD and in
                         accordance with national space policy. The Department's agreements
                         with NASA and DOD state that the Department is responsible for safety
                         analyses of the radioisotope power systems. Specifically, the

Page 3                                                                          Details of Finding
         Department's role is to "maintain the necessary capabilities to
         support civil space missions, including research on space energy
         technologies and space radiation effects and safety." The
         Department has interpreted these roles and responsibilities to require
         that it fund all safety-related activities.

         Management listed five key reasons for the Department to have the
         responsibility for funding safety-related efforts, even if they relate to
         the support of specific missions:

             1. The Department retains ownership of, and responsibility for,
                the nuclear systems, and is responsible for the safety of
                NASA's nuclear systems at all times prior to and after launch.

             2. As part of the launch safety approval process, the Secretary
                of Energy must affirm to the NASA Administrator the flight
                readiness and safety of the nuclear systems prior to launch.
                With this affirmation and recommendations from other
                agencies, NASA requests the White House to grant launch
                approval. This procedure has been followed for nearly
                40 years.

             3. The Department's sole responsibility for assuring the safety
                of its nuclear systems is well grounded in the Atomic Energy
                Act of 1954, as amended, and the national space policy.

             4. The Department has obtained funding to ensure the safety of
                nuclear systems in the past because it cannot afford to depend
                upon user agencies to provide adequate funding.

             5. The capability to perform the required safety analysis and
                testing is a unique expertise that cannot be turned on and off
                as specific missions come along. It is an integral "de facto"
                part of the Department's program and facility infrastructure.

         We acknowledge that the Department must perform safety-related
         activities to support NASA and DOD programs. However, when
         these activities and their associated costs are directly attributable to
         specific missions of these agencies, the costs should be born by the
         requesting Federal agencies. This is consistent with the policies
         outlined in the Department's own ARPS Streamlining Plan.




Page 4                                                        Details of Finding
                          Requiring user agencies to pay for mission-specific costs, including
                          nuclear safety analyses, would also be consistent with the present
                          practice of seeking reimbursement for the nuclear materials used to
                          power the ARPS products. It is inconsistent to ask NASA to pay for
                          the nuclear fuel, which the Department retains ownership of, and
                          responsibility for, but not the safety analysis directly associated with
                          the use of the fuel.

                          Further, we believe that properly executed interagency agreements,
                          as required in existing memoranda of understanding, would address
                          management's concerns and allow the Department to recover all
                          costs in excess of those necessary to maintain its basic infrastructure.

Department Is Incurring   The lack of formal interagency agreements and the Department's
Mission-Specific Costs    practice of funding safety-related activities has resulted in the
                          Department incurring mission-specific costs that should have been
                          paid by NASA or DOD. Our review of the Department's costs for
                          FYs 2000 through 2002 identified as much as $15.5 million of such
                          costs.

                          For FYs 2000 through 2002, the Department contracted with
                          Lockheed Martin Astronautics ($4.2 million) and the Navy's Applied
                          Physics Laboratory ($5.9 million) for safety activities related to
                          NASA missions. The statement of work for the Lockheed Martin
                          contract indicates that Lockheed Martin will support the
                          Department's efforts to qualify an existing radioisotope
                          thermoelectric generator for use by NASA in a future Pluto-Kuiper
                          mission. This includes performing analyses and tests necessary to
                          assure the generator meets all normal operating and launch
                          conditions, including potential launch accidents. The Applied
                          Physics Laboratory also provides technical analysis and testing for
                          NASA space missions. This includes preparing safety analysis
                          reports required prior to launch, reentry and non-reentry accident
                          scenarios analysis, launch required environmental impact statements,
                          and launch meteorological analysis and research.

                          Also during this period, the Department contracted with Teledyne
                          Brown ($2 million) and performed work at National Laboratories
                          ($3.4 million) to satisfy DOD requirements to support new and
                          ongoing national security programs.




Page 5                                                                        Details of Finding
RECOMMENDATIONS       We recommend that the Director, Office of Nuclear Energy, Science
                      and Technology, in coordination with the Office of Management,
                      Budget and Evaluation:

                         1. Establish interagency agreements with NASA and DOD for
                            ongoing ARPS projects, requiring user agencies to pay all
                            mission-specific development and hardware costs; and,

                         2. Develop and implement procedures to ensure interagency
                            agreements are established consistent with Departmental
                            policy prior to production of future ARPS projects.

MANAGEMENT REACTION   Management partially agreed with the audit finding and
                      recommendations. Management recognized that funding for future
                      mission-specific safety analyses could be the subject of discussions
                      with partner agencies. Accordingly, the Department will meet with
                      NASA and DOD to review existing agreements and clarify funding
                      responsibilities. However, management did not agree with our
                      conclusions that safety-related activities, even if mission-specific,
                      should be funded by the user agencies. Management contends that
                      the capability to perform the required safety analysis and testing is a
                      unique expertise that cannot be turned on and off as specific missions
                      come along. It is an integral "de facto" part of the Department's
                      program and facility infrastructure.

                      Furthermore, management believes that the Department has properly
                      sought funding for safety analysis consistent with its agreements
                      with NASA and DOD and in accordance with national space policy.
                      Even if future agreements specify that safety-related activities be
                      funded by user agencies, there is no added value in having NASA
                      and DOD seek funding from Congress for past activities and provide
                      these funds to the Department, only to have the Department return
                      the funds to the U.S. Treasury, as required by law. Management's
                      specific comments, organized by recommendation, are as follows:

                      Recommendation 1: Management partially concurred, stating that it
                      accepted the need to execute additional interagency agreements for
                      ongoing projects. However, this would only codify, with respect to
                      NASA, the funding responsibilities that have already been accepted
                      by both agencies. The Department has drafted a Supplemental
                      Agreement to the 1991 memorandum of understanding with NASA
                      to codify this understanding of funding responsibilities. Both



Page 6                                               Recommendations and Comments
                   agencies have been budgeting for and executing the program in
                   accordance with the delineation of responsibilities defined in the
                   1991 memorandum of understanding and subsequent
                   correspondence.

                   Recommendation 2: Management concurred, stating that it would
                   develop and implement the necessary procedures to ensure that
                   interagency agreements are consistent with Departmental policy.

AUDITOR COMMENTS   We disagree with management's position that safety-related activities
                   are part of the Department's program and facility infrastructure.
                   These Department-funded activities are not related to the
                   Department's infrastructure or its ability to produce isotope power
                   systems. They are mission-specific and should be reimbursed by
                   NASA and DOD. The Department could incur significantly more
                   mission-specific costs after FY 2002 if interagency agreements are
                   not established. NASA is planning several missions after FY 2002
                   that may require power systems similar to those used on the Cassini
                   Mission. Launch-related costs for these missions are expected to
                   significantly exceed the costs for ongoing projects.

                   Additionally, we disagree with management's statement that it has
                   properly sought funding for safety analysis consistent with its
                   agreements with NASA and DOD and in accordance with national
                   space policy. The memoranda of understanding state that
                   interagency agreements will be established to specify funding,
                   deliverables, levels of support, and other mission-specific items for
                   each mission. However, the Department did not establish
                   interagency agreements with either agency to define funding
                   responsibilities for mission-specific, safety-related activities.
                   Additionally, user funding of safety-related costs is not contrary to
                   the national space policy, as management implies. The policy
                   charges the Department with maintaining the necessary capability to
                   support space missions that may require the use of nuclear power
                   systems. However, it does not restrict the Department from seeking
                   NASA funding for mission-specific, safety-related costs.

                   Finally, we agree that there is no benefit in seeking recovery from
                   NASA and DOD for mission-specific costs related to past missions.
                   It would be impractical for these two agencies to initiate budget
                   requests to fund past activities. Accordingly, we have not
                   recommended the costs be recovered.




Page 7                                            Recommendations and Comments
         Our specific comments, organized by recommendation, are as follows:

         Recommendation 1: The Department should do more than simply
         "codify" the present relationship between the Department and the user
         agencies in establishing interagency agreements. The agreements
         should be established for each ongoing project in accordance with the
         requirements of existing memoranda of understanding and the
         Department's Accounting Manual. Each agreement should be a formal
         "contract" between the parties specifying what is to be delivered; the
         production schedule to be met; the levels of support; and the funding,
         addressed in detail, that will be required from each party. All mission-
         specific activities, including safety analysis, should be identified as a
         funding responsibility of the user.

         Recommendation 2: Management 's proposed actions are responsive to
         the recommendation.




Page 8                                     Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from April 4, 2001, to August 3, 2001, at the
              Office of Space and Defense Power Systems in Germantown,
              Maryland, and Washington, D.C.; the Office of Financial Policy in
              Washington, D.C.; and the Mound Site in Miamisburg, Ohio. The
              scope of the audit included ARPS production and funding agreements
              established by the Department with NASA and DOD between FY 1991
              and FY 2001.

METHODOLOGY   To accomplish the audit objective, we:

              •   Interviewed Office of Space and Defense Power Systems
                  management;

              •   Reviewed the Department's efforts to establish interagency
                  agreements with ARPS customers for past and current missions;

              •   Interviewed ARPS plant officials and observed current production
                  activities at the Mound Site;

              •   Evaluated Federal and Department regulations concerning multi-
                  entity activities, including requirements for formal agreements;

              •   Interviewed Office of Financial Policy personnel regarding the
                  appropriateness of existing Departmental orders and guidance for
                  interagency agreements;

              •   Reviewed Congressional direction concerning the Department's
                  funding of the ARPS Program;

              •   Analyzed corrective actions taken by the Office of Nuclear Energy,
                  Science and Technology in response to prior audit
                  recommendations; and,

              •   Analyzed past, current, and future funding to identify program costs
                  that should be recovered from NASA and DOD.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental orders and directives, and
              the memoranda of understanding developed with program users.



Page 9                                                     Scope and Methodology
          Because our review was limited, it would not necessarily have disclosed
          all internal control deficiencies that may have existed at the time of our
          audit. We did not conduct a reliability assessment of computer-
          processed data because only a limited amount of computer processed
          data was used during the audit. Finally, we evaluated the Department's
          expectations and performance measures for the ARPS program. We
          determined that the Department had established performance measures
          in accordance with the Government Performance and Results Act of
          1993.

          We held an exit conference with the Office of Nuclear Energy, Science
          and Technology, on January 2, 2002.




Page 10                                                 Scope and Methodology
Appendix 2




Page 11      Management's Comments
Page 12   Management's Comments
                                                                              IG Report No.: DOE/IG-0540

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
